 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL

   THE DEPARTMENT OF HEALTH
       AND HUMAN SERVICES
          DESIGNED ITS
    INTERNAL CONTROLS OVER
        HURRICANE SANDY
DISASTER RELIEF FUNDS TO INCLUDE
ELEMENTS SPECIFIED BY THE OFFICE
   OF MANAGEMENT AND BUDGET

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General
                                                    for Audit Services

                                                         July 2014
                                                       A-02-13-02010
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 The Department of Health and Human Services designed its internal controls for
 overseeing Hurricane Sandy disaster relief funds to include elements specified by the Office
 of Management and Budget.


WHY WE DID THIS REVIEW

The Disaster Relief Appropriations Act, 2013 (Disaster Relief Act), in part, provided the
Department of Health and Human Services (the Department) approximately $800 million in
funding for use in aiding Hurricane Sandy (Sandy) disaster victims and their communities. It
also required the Department to implement internal controls to prevent waste, fraud, and abuse of
these funds. The Office of Management and Budget (OMB) issued guidance to the Department
that specified required elements that would augment existing internal controls to address
additional risks associated with administering Sandy disaster relief funding. The Department’s
Office of Inspector General (OIG) was mandated to perform oversight, accountability, and
evaluation of programs, projects, or activities supported with Sandy disaster relief funds.

The objective of this review was to assess whether the Department designed its internal controls
for overseeing Sandy disaster relief funds to include elements specified by OMB.

BACKGROUND

Shortly after the Disaster Relief Act was signed into law, OMB issued Memorandum M-13-07
(OMB Memo), requiring agencies to augment their existing internal controls to address any
additional risks associated with administering Sandy disaster relief funding. OMB specified that,
at a minimum, agency internal control plans for Sandy disaster relief program funding must
consider the following elements:

        •   Additional Levels of Review: adopting more expansive review procedures, as
            appropriate, to scrutinize award decisions, payment transactions, and other critical
            process elements that affect the use of Disaster Relief Act funds.

        •   Increased Monitoring and Oversight of Grant Recipients: increasing frequency
            and specificity of grantee reporting, adding site visits, and providing additional
            technical assistance and training to recipients of Federal funding.

        •   Collaboration With the Inspector General Community: continuing early and
            frequent engagement with OIGs to discuss issues affecting Sandy disaster relief
            related programs and activities.

        •   Expedited Review and Resolution of Audit Findings: having the agency resolve
            all audit findings within 6 months after completion of the audit to the extent
            practicable and exploring the feasibility of reviewing internal control procedures
            before funding the activity.


Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)          i
OMB further required agencies to establish an improper payments management protocol to
ensure that Sandy disaster relief funding is managed with the same discipline and rigor as
programs that are traditionally designated as being at high risk for improper payments. Finally,
pursuant to section 904(c) of the Disaster Relief Act, OMB stated that Sandy disaster relief funds
must be expended within the 24-month period following the obligation of those funds and must
be returned if not expended within that 24-month period.

Because of automatic spending cuts imposed by the Budget Control Act of 2011, the Sandy
disaster relief funds the Department received were reduced to $759.5 million. Of this amount,
$749.5 million was allocated to four operating divisions and one staff division: the
Administration for Children and Families, the National Institutes of Health, the Substance Abuse
and Mental Health Services Administration, the Centers for Disease Control and Prevention, and
the Assistant Secretary for Preparedness and Response. Another staff division, the Assistant
Secretary for Financial Resources, received no funding but was charged with coordinating with
other divisions to compile and finalize the Department’s internal control plan for Sandy disaster
relief.

As of February 28, 2014, the Department had awarded approximately $586 million of the
$749.5 million to grantees. Of this amount, the grantees had expended approximately
$45 million.

WHAT WE FOUND

The Department designed its internal controls for overseeing Sandy disaster relief funds to
include elements specified by OMB. Specifically, the Department’s internal controls for Sandy
disaster relief program funding included the following elements: additional levels of review,
monitoring and oversight of grant recipients, OIG collaboration, and review and resolution of
audit findings. The Department also implemented internal controls to address the management
of unexpended grant funds. The Department’s internal controls for measuring and reporting
improper payments were under development during our audit period. Therefore, we were unable
to assess whether these controls addressed OMB requirements.

This report contains no recommendations.




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)        ii
                                                    TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

          Why We Did This Review ...................................................................................................1

          Objective ..............................................................................................................................1

          Background ..........................................................................................................................1
                Federal Requirements for Internal Controls ............................................................1
                Department of Health and Human Services.............................................................2

          How We Conducted This Review........................................................................................4

RESULTS OF AUDIT .....................................................................................................................4

          Design of Internal Controls Over Sandy Disaster Relief Funds ..........................................4
                 Additional Levels of Review ...................................................................................4
                 Monitoring and Oversight of Grant Recipients .......................................................5
                 Collaboration With the Inspector General Community ...........................................6
                 Expedited Review and Resolution of Audit Findings..............................................7

          Improper Payments Management Protocol ..........................................................................8

          Management of Unexpended Grant Funds ..........................................................................8

APPENDIXES

          A: The Department’s Planned Use of Sandy Disaster Relief Funds ................................10

          B: Audit Scope and Methodology.....................................................................................12




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                                                       iii
                                                  INTRODUCTION

WHY WE DID THIS REVIEW

Hurricane Sandy (Sandy) made landfall on October 29, 2012, devastating portions of the mid-
Atlantic and northeastern United States and leaving victims of the storm and their communities
in need of disaster relief aid. On January 29, 2013, the President signed into law the Disaster
Relief Appropriations Act, 2013 (P.L. No. 113-2) (Disaster Relief Act), which, in part, provided
the Department of Health and Human Services (the Department) approximately $800 million in
funding for use in aiding Sandy disaster victims and their communities. 1 The Disaster Relief Act
required the Department to implement internal controls to prevent waste, fraud, and abuse of
these funds. The Office of Management and Budget (OMB) issued guidance to the Department
that specified required elements that would augment existing internal controls to address
additional risks associated with administering Sandy disaster relief funding. The Department’s
Office of Inspector General (OIG) was mandated to perform oversight, accountability, and
evaluation of programs, projects, or activities supported with Sandy disaster relief funds.

OBJECTIVE

Our objective was to assess whether the Department designed its internal controls for overseeing
Sandy disaster relief funds to include elements specified by OMB.

BACKGROUND

Federal Requirements for Internal Controls

Shortly after the President signed the Disaster Relief Act into law, OMB issued Memorandum
M-13-07 (OMB Memo), requiring agencies to augment their existing internal controls 2 to
address any additional risks associated with administering Sandy disaster relief funding. 3 OMB
specified that, at a minimum, agency internal control plans for Sandy disaster relief program
funding must consider the following elements:

           •    Additional Levels of Review: adopting more expansive review procedures, as
                appropriate, to scrutinize award decisions, payment transactions, and other critical
                process elements that affect the use of Disaster Relief Act funds. As appropriate,
                senior level officials should be included in these reviews.




1
    In all, the Disaster Relief Act provided $50.5 billion in aid for Sandy disaster victims and their communities.
2
    Existing internal controls are required by OMB Circular A-123, Management’s Responsibility for Internal Control.
3
 The OMB Memo, issued March 12, 2013, also required each Federal agency to submit an internal control plan to
OMB, the Government Accountability Office (GAO), and the agency’s Inspector General by March 31, 2013.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                             1
         •   Increased Monitoring and Oversight of Grant Recipients: increasing frequency
             and specificity of grantee reporting, adding site visits, and providing additional
             technical assistance and training to recipients of Federal funding.

         •   Collaboration With the Inspector General Community: continuing early and
             frequent engagement with OIGs to discuss issues affecting Sandy disaster relief
             related programs and activities.

         •   Expedited Review and Resolution of Audit Findings: having the agency resolve
             all audit findings within 6 months after completion of the audit to the extent
             practicable and exploring the feasibility of reviewing internal control procedures
             before funding the activity.

OMB further required agencies to establish an improper payments management protocol to
ensure that Sandy disaster relief funding is managed with the same discipline and rigor as
programs that are traditionally designated as being at high risk for improper payments. Finally,
pursuant to section 904(c) of the Disaster Relief Act, OMB stated that Sandy disaster relief funds
must be expended within the 24-month period following the obligation of those funds and must
be returned if not expended within that 24-month period.

Department of Health and Human Services

The Department is composed of operating and staff divisions. Operating divisions perform a
wide variety of tasks and services in areas such as research, public health, food and drug safety,
and health insurance, and award grants and other funding. Staff divisions provide leadership,
direction, and policy and management guidance to the Department.

The Disaster Relief Act required the Department to use Sandy disaster relief funds to provide for
disaster response and recovery, and related expenses, in States that were directly affected by
Sandy and that were declared by the President as major disaster areas. Specifically, the funds
were to be used to repair and rebuild research, childcare, and social services facilities. In
addition, funds could also be used for research and for health services, including mental health
services. Department operating and staff divisions that received Sandy disaster relief funds
prepared spending plans describing the planned use of the funds. Appendix A contains details on
the Department’s planned use of Sandy disaster relief funds.

The Budget Control Act of 2011 (P.L. No. 112-25) reduced the Sandy disaster relief funds the
Department received from approximately $800 million to $759.5 million.4 Of this amount,
$749.5 million was allocated to four operating divisions and one staff division: the
Administration for Children and Families (ACF), the National Institutes of Health (NIH), the
Substance Abuse and Mental Health Services Administration (SAMHSA), the Centers for
Disease Control and Prevention (CDC), and the Assistant Secretary for Preparedness and

4
  The law imposed automatic spending cuts, known as “sequestration,” designed to reduce the Federal deficit. OMB
determined that disaster relief funds were subject to sequestration, and as a result, disaster relief funds received by
the Department were reduced by approximately $40.5 million.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                             2
Response (ASPR). Another staff division, the Assistant Secretary for Financial Resources
(ASFR), received no funding but was charged with coordinating with other divisions to compile
and finalize the Department’s internal control plan for Sandy disaster relief. 5

The following figure illustrates how the $749.5 million was allocated to the four operating
divisions and one staff division.

               Figure: Allocation of the Department’s Sandy Disaster Relief Funding
                                           ($ in millions)


                                       $7.5         $8.6 $7.4
                                     SAMHSA         ASPR CDC


                                     $148.8
                                      NIH




                                                                            $577.2
                                                                             ACF




As of February 28, 2014, the Department had awarded approximately $586 million of the
$749.5 million to grantees. Of this amount, the grantees had expended approximately
$45 million. The table below details how much the Department has awarded in Sandy disaster
relief funds and the amount of funds expended by grantees.




5
    ASFR submitted the Department’s internal control plan to OMB on March 29, 2013.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)       3
  Table: Sandy Disaster Relief Funding Awarded and Expended, as of February 28, 2014

                                                      Grant Funds               Grant Funds
                           Total Funding
                                                       Awarded                   Expended
        ACF                  $577,250,000             $491,786,000               $35,561,000
        NIH                   148,750,000               76,028,000                 8,622,000
        ASPR                    8,600,000                4,973,000                   134,000
        SAMHSA                  7,500,000                5,846,000                   216,000
        CDC                     7,360,000                7,355,000                   446,000
         Total               $749,460,000             $585,988,000               $44,979,000

HOW WE CONDUCTED THIS REVIEW

We reviewed the Department’s internal control plan and held discussions with division officials
to obtain an understanding of the additional policies and procedures that were established over
Sandy disaster relief funds. We also reviewed the divisions’ spending plans and obtained
information regarding the status of Sandy disaster relief funding obligations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                        RESULTS OF AUDIT

The Department designed its internal controls for overseeing Sandy disaster relief funds to
include elements specified by OMB. Specifically, the Department’s internal controls for Sandy
disaster relief program funding included the following elements: additional levels of review,
monitoring and oversight of grant recipients, OIG collaboration, and review and resolution of
audit findings. The Department also implemented internal controls to address the management
of unexpended grant funds. The Department’s internal controls for measuring and reporting
improper payments were under development during our audit period. Therefore, we were unable
to assess whether these controls addressed OMB requirements. This report contains no
recommendations.

DESIGN OF INTERNAL CONTROLS OVER SANDY DISASTER RELIEF FUNDS

Additional Levels of Review

The OMB Memo requires agencies to adopt more expansive review procedures, as appropriate,
to scrutinize award decisions, payment transactions, and other critical process elements that
affect the use of Sandy disaster relief funds. To ensure a higher degree of accountability, the



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)         4
OMB Memo requires each agency to include senior level officials in these reviews, as
appropriate.

Scrutiny of Award Decisions

The Department designed its internal controls to provide additional levels of review of award
decisions. Each division developed procedures to subject Sandy disaster relief grant applications
to a multistep review and approval process. Specifically, applications are to be reviewed by a
panel of technical experts and approved by program staff and grants management officials.
These reviews are to include budget and program compliance analyses. For example, ACF staff
review and approve pre-expenditure reports that detail grantees’ intended use of funds. Further,
ACF staff confirm that grantees have outlined eligibility criteria and verification requirements to
provide assurance that service recipients were directly affected by Sandy. Grant applications are
forwarded to senior level officials for final review and approval. Once grants have been
approved, grants management officials send grant award notices to grantees.

Scrutiny of Payment Transactions

The Department designed its internal controls to provide additional levels of review of payment
transactions. Each division established procedures to review grantees’ payment transactions
quarterly. Specifically, staff are to review quarterly progress and financial reports submitted by
grantees and compare amounts in those reports to the amount of Federal funds drawn down from
the Department’s Payment Management System. In addition, staff are to ensure that grantees
comply with the terms and conditions specified in grant award notices. The notices require that
grantees certify that funds will not be used for costs reimbursed by the Federal Emergency
Management Agency (FEMA), under a contract for insurance, or by self-insurance. The notices
further require that if recipients are reimbursed during the award period (by FEMA or an
insurer), the recipients must reimburse the Department for these costs.

Monitoring and Oversight of Grant Recipients

The OMB Memo requires agencies to mitigate risk by increasing the frequency and specificity of
grantee reporting, conducting additional site visits, and providing additional technical assistance
and training to grant recipients.

Frequency and Specificity of Grantee Reporting

The Department designed its internal controls to provide increased frequency and scrutiny of
grantee reporting. ASFR instructed the divisions to establish standard terms and conditions for
each grant award that would increase the level of accountability from grant recipients. For
example, grantees would be required to: (1) submit quarterly programmatic and financial reports
detailing progress on the use of Sandy disaster relief funds, (2) expend funds within the
24-month period following the agency’s awarding of the funds, and (3) reimburse the
Department for any costs incurred that were reimbursed by FEMA or insurers.




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)         5
In addition, to enable divisions to separately track and monitor Sandy disaster relief funds and
expenditures reported by grantees, ASFR established two Catalog of Federal Domestic
Assistance (CFDA) numbers, 6 one for tracking Sandy disaster relief nonconstruction
expenditures and one for tracking Sandy disaster relief construction expenditures. 7 The CFDA
numbers, which are included in the grant award notice issued to grantees, enable the Department
to track how much money is being expended for Sandy disaster relief.

Site Visits

The Department designed its internal controls to provide for additional site visits. Each division
plans to conduct additional site visits, as necessary, to ensure that recipients of nonconstruction
funding are complying with Federal requirements. ACF plans to conduct site visits for every
award recipient that receives funds to repair and rebuild childcare or social services facilities.
NIH plans to conduct site visits for every award recipient that receives construction funds to
build, renovate, or repair research facilities.

Technical Assistance and Training

The Department designed its internal controls to provide for additional technical assistance and
training to grant recipients. Division staff developed procedures to facilitate ongoing project
monitoring and coordination and to provide technical assistance to grantees. For example, each
division plans to post general guidance and technical assistance information on its Web site.
Division staff are to provide specific technical assistance as needed.

Collaboration With the Inspector General Community

The OMB Memo requires agencies to collaborate with the Inspector General community to
discuss issues affecting Sandy disaster relief programs and activities.

The Department designed its internal controls to include collaboration with the Department’s
OIG. Specifically, the Department’s internal control plan and related procedures provide for the
frequent discussion with the Department’s OIG of issues affecting Sandy disaster relief programs
and activities. ASFR, acting on behalf of the other divisions, has been conducting quarterly
meetings with the Department’s OIG to discuss Sandy disaster relief issues, including the
awarding and expending of funds, the status of on-going audits by the Department’s OIG, and
improper payments management. ASFR officials stated that they plan to continue these
quarterly meetings until all Sandy disaster relief funds have been awarded.


6
  The CFDA is a governmentwide compendium of Federal programs, projects, services, and activities that provide
assistance or benefits to the American public. Each program is assigned a unique number that follows the program
throughout the assistance life cycle, enabling data and funding transparency.
7
 The CFDA number for tracking Sandy disaster relief nonconstruction expenditures is to be used for tracking grants
with both construction and nonconstruction expenditures. Grantees must separately track their expenditures by
CFDA number in their financial statements.




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                          6
Expedited Review and Resolution of Audit Findings

Departmental grantees are subject to audits by GAO and the Department’s OIG. In addition,
grantees that expend more than $500,000 are required to have an annual audit known as a single
audit (OMB Circular A-133, subpart B § 200(a)). 8 These audits are generally conducted by
certified public accounting firms. The Department is responsible for resolving audit findings
(Grants Administration Manual (GAM)). 9

The OMB Memo requires agencies to resolve all audit findings within 6 months after completion
of the audit to the extent practicable. In addition, the OMB Memo instructs agencies to avoid
granting extension requests for audit report submissions and to explore the feasibility of
reviewing grantee internal control procedures before grant funds were awarded.

The Department designed its internal controls to address resolution of audit findings. The GAM
requires audit resolution, which includes grantees’ corrective action plans, an assessment of
grantee resolution of audit findings, and communication of the resolution results to the audit
agency and to the grantee, within 6 months. The divisions had existing procedures that
addressed these requirements. 10

The Department’s internal controls did not address the authorization of extension requests for
audit report submission. However, Department officials explained that the Department does not
grant extensions requests. Therefore, the Department did not include additional internal control
activities related to extension requests for audit report submission in its internal control plan.

Also, the Department’s internal controls did not address additional reviews of grantee internal
control procedures. Division officials stated that they explored the feasibility of performing
these reviews and determined that existing control procedures were adequate. The divisions told
us they plan to conduct financial capability reviews for all new grantees, including a review of
grantees’ most recently issued financial statements and audit reports. In addition, ACF and CDC
plan to require grantees to certify that their financial systems are adequate to account for Federal
funds before awarding Sandy disaster relief funds. Given the flexibility described in the OMB
Memo that Federal agencies have in reviewing grantee internal control procedures before
awarding funds, we determined that the Department’s alternative procedures and requirements
were reasonable.


8
 OMB published final guidance, “Uniform Administrative Requirements, Cost Principles, and Audit Requirements
for Federal Awards,” on December 26, 2013 (78 FR 78589). The guidance raised the single audit threshold to
$750,000 (78 FR 78662). The $500,000 threshold was in place during this audit period.
9
 Resolution is deemed to occur when (1) a final decision on the amount of any monetary recovery has been reached,
(2) a plan of action to correct all deficiencies has been established, and (3) the audit report has been cleared from the
Department’s tracking system (GAM, chapter 1-105, “Resolution of Audit Findings”).
10
  Under existing procedures, in some instances the Department did not always resolve audit findings within the
required 6-month period. However, we did not determine that the Department’s design of controls was the root
cause for its exceeding the 6-month period.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                              7
IMPROPER PAYMENTS MANAGEMENT PROTOCOL

The OMB Memo requires agencies to establish improper payments management protocols to
ensure that Sandy disaster relief funds are managed with the same discipline and rigor as
programs that are traditionally designated as being at high risk for improper payments. Agencies
are also required to develop a sampling methodology11 for use in reporting a statistically valid
estimate of the annual amount of improper program payments and produce and report an
improper payment estimate for the fiscal year 2014 reporting period by March 31, 2015. 12
Agencies are encouraged to use resources already devoted to improper-payment-related
activities.

The Department’s internal controls to measure and report improper payments as outlined in the
OMB Memo were under development during our audit period. Therefore, we were unable to
assess whether the controls addressed OMB requirements. Nevertheless, the Department
indicated that it plans to produce an improper payment estimate by the required March 31, 2015,
deadline. Specifically, Department officials told us that the divisions are developing
methodologies that can be used to report an estimate of improper payments.

MANAGEMENT OF UNEXPENDED GRANT FUNDS

The OMB Memo requires agencies to ensure that all grant awards made under the Disaster
Relief Act are expended within the 24-month period following the agency’s obligation of funds
and that grantees return any funds not expended within this period, in accordance with the
statutory requirement. 13 Agencies are to ensure that proposed grant activities have clear
timelines for execution and completion within the 24-month period. OMB may grant waivers to
extend the 24-month period but only on a case-by-case basis.

The Department designed its internal controls to address management of unexpended grant
funds. Specifically, the divisions are using existing procedures to review grant applications and
discuss grant activity timelines with grantees. For example, the application invitation letter for
one of ACF’s programs stipulated that all funds must be obligated and expended within the
project period. The letter also stated that financial and program progress reports will be required
quarterly and that grantees should expect increased oversight and monitoring activities. In
addition, the divisions included a requirement within the grant award notice that directs grantees
to expend funds within 24 months of the date of the award and to return unexpended grant funds


11
 The OMB Memo instructed agencies to obtain OMB approval before making significant changes to an existing
methodology or applying a new methodology.
12
  The Improper Payments Information Act of 2002 (31 U.S.C. § 3321 note) (IPIA) requires agencies to estimate the
annual amount of improper payments and submit the estimates to Congress before March 31 of the following
applicable year. The OMB Memo instructed agencies to develop sampling methodologies consistent with the IPIA
requirements listed in OMB Circular A-123.
13
  As of February 28, 2014, $44,979,000, or 8 percent, of the $585,988,000 in awarded grant funds had been
expended.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                      8
to the divisions after the grant expires. 14 The divisions are to initiate grant closeout procedures
after a grant expires. The divisions are also to review the final progress and financial reports
submitted by grantees to determine whether there are any unexpended grant funds. If
unexpended grant funds do exist, the divisions are to adjust the final award amounts to match the
expenditures and return the unexpended funds to the Department of the Treasury. With the
exception of NIH, none of the divisions requested an OMB waiver to extend the grant period.
NIH requested and received an OMB waiver for its construction grants because NIH determined
that 2 years would not be enough time for these projects to be completed.




14
     Grantees must expend NIH construction funds within 60 months of the date of the award.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)          9
                   APPENDIX A: THE DEPARTMENT’S PLANNED USE OF
                           SANDY DISASTER RELIEF FUNDS

The Disaster Relief Act required the Department to use Sandy disaster relief funds to provide for
disaster response and recovery, and related expenses, in States directly affected by Sandy and
that were declared by the President as major disaster areas. Specifically, the funds were to be
used to repair and rebuild research, healthcare, childcare, and social services facilities. In
addition, funds could be used for research and for health services, including mental health
services. The Department planned to use the Sandy disaster relief funds as follows.

ADMINISTRATION FOR CHILDREN AND FAMILIES

ACF received $577.2 million in Sandy disaster relief funds and allocated the funds to the
following programs:

     •   Social Services Block Grant—$474.5 million.

     •   Head Start—$95 million.

     •   Administration and Oversight—$5.7 million.

     •   Family Violence Prevention Services—$2 million.

NATIONAL INSTITUTES OF HEALTH

NIH received $148.8 million in Sandy disaster relief funds and allocated the funds to following
areas:

     •   Research restoration—$80.6 million.

     •   Constructing and restoring extramural research facilities—$66.4 million.

     •   Worker health and safety training—$1.8 million.

ASSISTANT SECRETARY FOR PREPAREDNESS AND RESPONSE

ASPR received $8.6 million in Sandy disaster relief funds and allocated $7.6 million of that
amount to health system response and recovery research and evaluation projects. 15 ASPR
allocated the remaining $1 million to create a common research data set that will promote a
common area of research practice and create efficiencies by reducing the level of investigator
burden that would result from the duplicative need to gather, link, and tabulate similar data sets.


15
  Under these projects, 10 to 15 recipients will receive funds to perform surveys and behavioral health studies to
obtain information that aids response and recovery from Sandy.



Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)                            10
SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION

SAMHSA received $7.5 million in Sandy disaster relief funds and allocated the funds to the
following programs:

    •   Behavioral Health Treatment—$2.2 million.

    •   National Disaster Distress Helpline—$2.1 million.

    •   Teacher Resiliency Training—$1.5 million.

    •   Crisis Counseling & Treatment for Relocated Survivors and Responders—$900,000.

    •   Restoration of Medication Assisted Treatment of Opioid Addiction—$800,000.

CENTERS FOR DISEASE CONTROL AND PREVENTION

CDC received $7.4 million in Sandy disaster relief funds and allocated the funds to the following
programs:

    •   Office of Public Health Preparedness & Response—$4.6 million.

    •   National Institute for Occupational Safety & Health—$2.7 million.

    •   National Center of Environmental Health—$100,000.

Some of the research that CDC plans to fund includes examining fungal exposure in homes,
health effects and risk factors, morbidity and mortality, effects on health and mental health,
public health systems response, chemical releases due to the hurricane damage, safety training
for health department workers, and occupational hazards of immigrant day laborers.




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)        11
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered the design of internal controls in place at ASFR, ASPR, ACF, NIH,
SAMHSA, and CDC related to the oversight of Sandy disaster relief funds during our
January 29, 2013, through December 31, 2013, audit period. We did not perform procedures to
determine the operating effectiveness of these internal controls. We conducted the audit in
fulfillment of Disaster Relief Act requirements that OIGs perform oversight, accountability, and
evaluation of programs, projects, or activities supported with Sandy disaster relief funds.

We conducted our audit from May 2013 through February 2014. We performed our fieldwork at
ASFR’s, ASPR’s, and ACF’s offices in Washington, D.C.; NIH’s offices in Bethesda, Maryland;
SAMHSA’s offices in Rockville, Maryland; and CDC’s offices in Atlanta, Georgia.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance, including the Disaster
        Relief Act and OMB Memo;

    •   held discussions with Department officials;

    •   reviewed accounting reports, spending plans, and related documents;

    •   reviewed the Department’s internal control plans submitted to OMB and identified key
        control activities;

    •   determined whether the internal control plans address the reporting requirements for all
        programs funded under the Disaster Relief Act;

    •   flowcharted award decisions, payments transactions, and other critical process elements
        that affected the use of Sandy disaster relief funds;

    •   reviewed each division’s procedures for grantee reporting, conducting additional site
        visits, and providing technical assistance and training to recipients of Federal funds;

    •   reviewed the minutes of quarterly meetings between ASFR and the Department’s OIG;

    •   reviewed each division’s procedures for resolving grantee audit findings;

    •   discussed with division officials their plans to report improper payment estimates for the
        fiscal year 2014 reporting period;




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)          12
    •   reviewed each division’s procedures for ensuring that grantees expend funds within the
        required 24-month period and have a timeline for execution and completion of their grant
        and for requesting OMB waivers when a grantee cannot meet the 24-month completion
        deadline;

    •   reviewed examples of documentation used by each division’s staff to execute their
        procedures; and

    •   discussed the results of our review with Department officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Department of Health and Human Services Hurricane Sandy Internal Controls (A-02-13-02010)     13
